N. iOCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

,1 Legal. Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No. 19-968
CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,
Petitioners,
v.
STANLEY C. PRECZEWSKI, JANN L. JOSEPH,
LOIS C. RICHARDSON, JIM B. FATZINGER
TOMAS JIMINEZ, AILEEN C. DOWELL, GENE RUFFIN,
CATHERINE JANNICK DOWNEY, TERRANCE
SCHNEIDER, COREY HUGHES, REBECCA A. LAWLER,
AND SHENNA PERRY,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of September, 2020, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE AMERICAN HUMANIST
ASSOCIATION IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:
SEE ATTACHED

To be filed for:
MONICA L. MILLER
Counsel of Record
AMERICAN HUMANIST ASSOCIATION
1821 Jefferson Place N.W.
Washington, D.C. 20036
202-238-9088
mmiller@americanhumanist.org
Counsel for Amicus Curiae

Subscribed and sworn to before me this 29th day of September, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska

at.iittaz&--Ac. ari&

RENEE J. GOSS
My Comm. Exp. September 5, 2023

Notary Public

Affiant

40006

Attorneys for Petitioners
John J. Bursch
Counsel of Record

Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001

(616) 450-4235

jbursch@adflegal.org
Party name: Chike Uzuegbunam, et al.

Attorneys for Respondents
Andrew Alan Pinson
Counsel of Record

Office of the Georgia Attorney General
40 Capital Square SW
Atlanta, GA 30334-1300
apinson@law.ga.gov

Party name: Stanley Preczewski, et al.

404-651-9453

